Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Salt Lake City, Utah Police Department
GR-80-01-001October 3, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Salt Lake City, Utah Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a total of $5,291,648 to hire 39 new police officers, redeploy 89.7 existing full-time officers from administrative duties to community policing, and to fund the training of 1 military veteran hired under the "Troops to COPS" program.

We reviewed the police department's compliance with eight essential grant conditions.  We found the following grant conditions acceptable: grantee's budgeting practices, hiring of police officers, source of local matching funds, planning for retention of officer positions, community policing activities, and status reporting.  However, we found weaknesses in the areas identified below.  As a result, we question $219,274 and recommend that $27,141 be put to better use.1

The police department was awarded a now expired MORE 95 grant and two supplements totaling $246,861.  However, the police department was only reimbursed $219,720 as of June 30, 1998 (the end of the grant period) because all costs had already been incurred with no need for any remaining grant funds.  Therefore, we recommend the remaining $27,141 funds be put to better use.
	Ten civilian support personnel charged to the MORE 95 grant were hired before the award start date of July 1, 1995.  As a result, we questioned $115,762 in salaries and fringe benefits paid to those employees.
	The police department was awarded a MORE 98 grant to buy computer equipment.  The award start date was September 1, 1998; however, the police department purchased $103,512 in equipment in August 1998.  As a result, we questioned all costs for equipment purchased before the grant award date.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.





Footnote
1.   The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.